  Peace Corps
  Office of Inspector General




Final Program Evaluation Report:
      Peace Corps/Nicaragua
           IG-09-02-E

                          December 2008
Final Program Evaluation Report:
      Peace Corps/Nicaragua
               IG-09-02-E




     __________________________________

                 Shelley Elbert
  Assistant Inspector General for Evaluations




              December 2008
                              EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an evaluation of the Peace Corps
program in Nicaragua; the fieldwork was conducted May 19 - June 13, 2008. The OIG
evaluation covered fiscal years 2006, 2007, and 2008. We identified successful systems
and initiatives along with opportunities to improve the effectiveness of PC/Nicaragua.

At the onset of our evaluation, there were 158 Volunteers, 18 Trainees, and 38 staff in
Nicaragua. Personal interviews were conducted with 33 Volunteers and with 19 staff.
There are five project sectors: (1) environment, (2) small business development, (3)
agriculture/rural development, (4) health, and (5) Teaching English as a Foreign
Language (TEFL).

The OIG evaluation concluded that PC/Nicaragua benefits from engaged leadership and a
resourceful team committed to the success of the program in Nicaragua. PC/Nicaragua
has developed and implemented projects which engage Volunteers in meaningful work
and cross-cultural exchange.

PC/Nicaragua had an active working relationship with multiple levels of the Nicaraguan
government and stakeholders seemed informed, engaged and involved. At the
community level, Volunteers were building successful partnerships with multiple
counterparts and project partners. Volunteers had a clear understanding of their projects'
goals and objectives and were satisfied with their project sites. Competencies, learning
objectives, and tools for assessment provide clear expectations and support the link
between programming and training.

Volunteers rated their overall training as very effective. The Community-based Training
(CBT) model promotes community integration and cross-cultural understanding and
mandatory youth groups and Participatory Analysis for Community Action (PACA)
activities in pre-service training provide Trainees with the skills to be successful
Volunteers. Training staff's institutional knowledge and integration into the
PC/Nicaragua team are also factors in the program's success.

In general, Volunteers reported that they were satisfied with the support they received
from staff and rated all staff functional areas “above average” in terms of support during
interviews. PC/Nicaragua has had to address multiple emergency action planning events
in the last year and has improved its time to report contact with Volunteers. Volunteers
could benefit, however, from consolidation point addresses and street maps in the post’s
Emergency Action Plan. The post also appears to be addressing and reporting crimes
against Volunteers; however, there were discrepancies between the number of crime
incidents recorded by the post and headquarters.

Interviews identified a few areas of concern in the area of support: Volunteers question
the effectiveness of the Volunteer Advisory Council (VAC), concerns about medical
confidentiality due to the physical limitations of the medical office were raised and


Final PC/Nicaragua Program Evaluation Report                                                 i
Volunteers described their living allowance as being inadequate, but ratings and living
allowance survey response rates indicate more information is needed for a complete
picture.

Our report contains eight recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.




Final PC/Nicaragua Program Evaluation Report                                              ii
                                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................................... i

INTRODUCTION .................................................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................................... 2

EVALUATION RESULTS ........................................................................................................ 3
     PROGRAMMING ........................................................................................................................................ 3

     CROSS-CULTURAL UNDERSTANDING ....................................................................................................... 6

     TRAINING ................................................................................................................................................. 8

     VOLUNTEER SUPPORT ............................................................................................................................ 11

     MANAGEMENT CONTROLS ..................................................................................................................... 18

     AGENCY PERFORMANCE REPORTING ..................................................................................................... 19


POST STAFFING .................................................................................................................. 21

LIST OF RECOMMENDATIONS ............................................................................................. 22

APPENDIX A: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                                     INTRODUCTION
Peace Corps Volunteers have served in Nicaragua since 1968. The program was
suspended in February 1979 when a short-lived civil war brought the Marxist Sandinista
guerrillas to power. Following democratic elections in February 1990, the Government
of Nicaragua requested Peace Corps' assistance and the original country agreement was
re-instituted. In May 1991, the program was officially re-opened and the post has since
been in continuous operation. In October 1998, Hurricane Mitch ravaged the country,
which left widespread flood damage, roads and bridges destroyed, and farmland
devastated throughout the Pacific and North Central regions of the country. Immediately
following the hurricane, Volunteers helped to organize emergency relief and prevent
outbreaks of disease, and continued to work in reconstruction efforts. From 1999 - 2001,
38 Crisis Corps Volunteers served in Nicaragua in Natural Disaster Reconstruction.
Even though the last Crisis Corps Volunteers left in 2001, training in disaster
preparedness and mitigation has been expanded for all Volunteers. 1

Peace Corps Volunteers in Nicaragua are working in the agriculture, small business
development, community health, and environmental education sectors. In addition, Peace
Corps/Nicaragua opened the first Peace Corps Teaching English as a Foreign Language
(TEFL) program in Latin America in September 2006.

The Office of Inspector General (OIG) conducted a program evaluation of Peace
Corps/Nicaragua April - September 2008, which included a field visit to PC/Nicaragua
May 18 - June 13, 2008. At the onset of our review, the post had 158 Peace Corps
Volunteers in the field. The following table presents demographic data on Volunteers by
project, gender, and age.

Table 1: Volunteer Demographic Data
                         Project                                      Percentage of Volunteers
Community-based Environmental Education                                        22%
Community Health Education                                                     22%
Agriculture and Food Security                                                  21%
Small Business Development                                                     18%
Teaching English as a Foreign Language                                         17%
                         Gender                                       Percentage of Volunteers
Male                                                                           37%
Female                                                                         63%
                           Age                                        Percentage of Volunteers
25 or younger                                                                  71%
26-29                                                                          25%
30-54                                                                           2%
55 and over                                                                     2%
Source: PC/Nicaragua Volunteer Roster, April 2008.

1
 The name of “Crisis Corps” was changed to “Peace Corps Response” in October 2007. Peace Corps
Response is a program within the Peace Corps that mobilizes Returned Peace Corps Volunteers to provide
short-term humanitarian service.


Final PC/Nicaragua Program Evaluation Report                                                             1
             OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps/OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and Congress.

The Evaluations Unit within the Peace Corps Office of Inspector General provides senior
management with independent evaluations of all management and operations of the
Peace Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.

The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of Peace Corps/Nicaragua on April 2, 2008. For post evaluations we use the
following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program, and agency priorities?

The evaluation team conducted the preliminary research portion of the evaluation April
2 – May 16, 2008. This included review of agency documents provided by headquarters
and post staff and interviews with management staff representing the region and the
Center for Field Support and Applied Research. In-country fieldwork occurred May
18 - June 13, 2008, and was comprised of interviews with post senior staff in charge of
programming, training and support; the U.S. Ambassador; the U.S. Regional Security
Officer; and host country government ministry officials. In addition, we interviewed a
stratified judgmental sample of 20% of currently serving Volunteers based on their length
of service, site location, project focus, gender, age, and ethnicity. The majority of the
Volunteer interviews occurred at the Volunteers’ homes; we also inspected these homes
using post-defined site selection criteria. The period of review for a post evaluation is
one full Volunteer cycle (typically 27 months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the President’s Council on Integrity and Efficiency. The findings, and
recommendations provided in this report have been reviewed by agency stakeholders
affected by this review.


Final PC/Nicaragua Program Evaluation Report                                            2
                              EVALUATION RESULTS
PROGRAMMING

The United States and Nicaragua share an active country agreement that was signed in
1968. The agreement lays out the major responsibilities held between the governments of
the United States and Nicaragua though the language is not specific to development
needs or Volunteer activities.

PC/Nicaragua is providing technical assistance to interested communities, groups, and
individuals in the following five project sectors.

    •   Environmental Education
        Since 1994, PC/Nicaragua has educated students, teachers, community leaders,
        and small groups to increase environmental awareness and projects in their local
        environment through community-based education. Volunteers promote new
        attitudes towards the environment and help to develop proactive behavior in
        students and teachers in rural primary schools.

    •   Community Health Education
        The Community Health project promotes adolescent life skills, improved maternal
        and child health practices, and STD/HIV/AIDS prevention activities in rural
        health posts, health centers, municipal health departments, and with a variety of
        non-governmental organizations.

    •   Sustainable Food Security
        The Sustainable Food Security project addresses the rural development needs of
        small-scale farmers and their families by helping them meet their nutritional,
        productive, and organizational needs. The Agriculture project is collaborating
        with the Small Business Development project to strengthen agribusiness
        programming and training.
    •   Small Business Development
        A main component of Volunteers work in the small business development project
        is through the entrepreneurship course La Empresa Creativa (The Creative
        Enterprise). Similar to Junior Achievement, The Creative Enterprise provides
        young people hands-on experience with the entire business lifecycle and
        culminates in a national competition. Volunteers co-plan and co-teach with
        counterpart instructors in public high schools to help students develop practical
        economic and business skills, as well as entrepreneurial values and attitudes.

    •   Teaching English as a Foreign Language (TEFL)
        PC/Nicaragua’s TEFL program was established in 2006 and is the first Peace
        Corps TEFL program in Latin America. Volunteers work alongside current high
        school educators to help them enhance their English language and teaching skills.
        They also coordinate extracurricular activities such as English language clubs,
        summer programs, and community outreach activities (i.e., tutoring, community


Final PC/Nicaragua Program Evaluation Report                                               3
        classes). Additionally, the Ministry of Education (MINED) has engaged
        PC/Nicaragua staff and Volunteers to contribute to the design of the new national
        English curriculum.

Our evaluation concluded that Peace Corps Nicaragua has developed and implemented
projects which engage Volunteers in meaningful work and cross-cultural exchange.
PC/Nicaragua has an active working relationship with multiple levels of the Nicaraguan
government and stakeholders seem informed, engaged, and involved. Volunteers
understood their projects’ goals and objectives and worked towards those ends. Project
sites were well selected and Volunteers integrated successfully into their sites

PC/Nicaragua has active working relationships with the Nicaraguan government.

Since the 2006 presidential election, Peace Corps projects stakeholders have changed at
national, regional, and local levels throughout the Nicaraguan government. Even with
these changes, PC/Nicaragua staff has maintained collaborative working relationships at
multiple government levels.

Nicaragua’s Ministry of Education (MINED) is the host ministry for three of five
projects: Environmental Education, Small Business Development, and Teaching English
as a Foreign Language. The Ministry of Health (MINSA) hosts the Community Health
project. The counterpart ministry for the Agriculture project is the Instituto Nicaraguense
de Tecnologia Agropecuaria (INTA), an agriculture extension agency ascribed to the
Ministry of Agriculture.

Each of the five projects differed slightly in terms of the nature and frequency with the
counterpart ministry with which it works. Generally, ministry officials or representatives
were engaged as project partners at a stakeholder level. Most project partners or
counterparts with whom Volunteers work on a daily basis were at the local level, though
Volunteers did occasionally interact with national and regional level officials. Many
Volunteer counterparts signed off on Volunteer trimester reports, or included Volunteer
activities in their own performance reports.

Ministry representatives with whom we spoke described their participation with the
projects with which they were associated. They described to us the goals of the projects
and their participation in site development, training, and project evaluation activities. In
addition, the ministry representatives explained to us that they are updated on Peace
Corps Volunteer activities and accomplishments. They participate in Project Advisory
Council (PAC) and regional meetings (i.e., mini-PACs), the site development process,
Volunteer orientation, training, support, and performance reporting.

According to post staff, the agency director’s meeting with the President of Nicaragua in
January 2008 had a significant effect on reconfirming Nicaraguan commitment to Peace
Corps at the national level. Following that meeting, each project received confirmation
of interest from its counterpart ministry.




Final PC/Nicaragua Program Evaluation Report                                                   4
Volunteers reported that they understood their projects’ goals and objectives and were
satisfied with their project sites.

Of the Volunteers we interviewed, 93% were familiar with the goals and objectives of
their project and were able to describe them. Seventy-one (71%) percent felt their
activities related to project objectives “above average” or “very well.” PC/Nicaragua
Volunteers have a clearer understanding of their primary goals, objectives, and
responsibilities than global averages per the 2006 Biennial Volunteer Survey.

One hundred percent of Volunteers interviewed were satisfied with the decision to select
their project site – 60% stated that they were “very satisfied.” Pre-service training (PST)
“roundtables,” which include management, safety and security, medical, programming
and training staff, provide a mechanism for programming staff to get a holistic view of
the Trainee leading up to site assignment. The data seemed to indicate that PC/Nicaragua
was effectively placing Volunteers in appropriate communities.

Volunteers were building successful partnerships with multiple counterparts and
project partners.

PC/Nicaragua has been successful at identifying and developing effective project
partners, even with changing stakeholders. A contributing factor to PC/Nicaragua’s
success is that each project sector has structured site development to strive for multiple
counterparts for each Volunteer. In the interviews we conducted, Volunteers described
and rated their working relationships with everyone whom they considered a counterpart.
The number of project partners per Volunteer ranged from one to seven. Of the 31
Volunteers we interviewed, only two stated that they had only one counterpart. The
average working relationship score on a 5 point scale (1=poor, 5=outstanding) was 3.83.
While some questioned particular counterparts’ motivations and commitment, only one
Volunteer we interviewed did not have a satisfactory working relationship with any
counterpart; however, this Volunteer stated that PC/Nicaragua had been responsive
regarding the situation.

The post has developed strategies to adjust for Trainees who arrive without the
requested skill sets.

Post programming staff stated that they do not always receive Trainees with the requested
skills, especially for projects that require specific technical skills. Volunteers we
interviewed confirmed that technical training on specific topics such as appropriate
agricultural technologies, business consulting, or classroom management techniques was
needed to perform basic activities of their assignment.

To account for this, programming and training staff have managed Trainee inputs to
contend with country realities and applicant supply. Their actions have included
modifying the mix of requested assignment areas (AAs) and the timing of training inputs
to capitalize on the collective skills of the cohort and seasonal fluctuations in the supply




Final PC/Nicaragua Program Evaluation Report                                               5
of certain types of applicants. Another strategy was to adjust the project focus and
activities to work with available skills.

PC Nicaragua has also implemented measures to set clear expectations about service in
Nicaragua during the invitation and staging phases. The post has developed a video
which depicts a typical Volunteer’s life in Nicaragua. Additionally, the agriculture
project staff has asked to be put in touch with Invitees who have questions or concerns
about Peace Corps service. PC/Nicaragua programming staff commended the placement
desk for Nicaragua for involving post staff before invitations were issued to “almost
match,” (applicants whose skill sets fell outside of the requested range) candidates.

Small Project Assistance and Peace Corps Partnership grants assist with capacity
building and basic needs.

The Small Project Assistance (SPA) and the Peace Corps Partnership Program (PCPP)
grants help Volunteers build local capacity and introduce community members to the
process of grant writing.

In calendar year 2007, Volunteers completed 16 SPA projects and four Peace Corps
Partnership projects. Construction projects (i.e., latrine, resource centers, livestock
production) were the most common types of projects. PC/Nicaragua’s grants committee
makes funding decisions for both SPA and Peace Corps Partnership grants. Project
Specialists 2 chair the committee on a rotating basis.

At the U.S. Agency for International Development mission level where SPA funds are
allocated to Peace Corps posts, funding is being designated in specific program areas.
While this provision does not impact current SPA carry-over funding for PC/Nicaragua,
it could have implications for the type of projects funded for future grants.

CROSS-CULTURAL UNDERSTANDING

The second of three Peace Corps goals that defines the mission of the Peace Corps is to
help promote a better understanding of Americans on the part of the people served. In
order for this to occur, Volunteers must understand and appreciate the culture of their
host country as well as their own. Cultural exchange is an integral part of the transfer of
knowledge and skills that occurs both between host-country community partners and
Volunteers. We interviewed Volunteers, post staff, and Ministry officials as well as
reviewed training and evaluation materials to understand to what extent the mutual
aspects of cross-cultural understanding are considered in the post’s operating philosophy.

Peace Corps/Nicaragua promotes cross-cultural understanding as a driver of Trainee and
Volunteer success by: providing experiential community-based training; communicating
expectations, behaviors and attitudes against which Trainees will be assessed; and
presenting Trainees and Volunteers tools for self-assessment and offering feedback to
2
 In PC/Nicaragua, Project Specialists are akin to junior Associate Peace Corps Country Directors
(APCDs). One APCD and one Project Specialist are associated with each project.


Final PC/Nicaragua Program Evaluation Report                                                       6
Trainees/Volunteers on cultural adaptation observations. Ninety-three percent of
Volunteers interviewed for this evaluation rated themselves as having “above average
success” to “very successful” in understanding cross-cultural issues.

Nicaraguan Ministry representatives, with whom the evaluation team met, were also
positive regarding Volunteers’ cultural integration and adaptation and related this factor
to successful Peace Corps projects and provided the following comments:

        “Volunteers are literally inserted into communities – that’s where they
        live; that’s where their houses are; they eat what the members of the
        community eat, the attend the local festivals; they become part of the local
        community. Everyone knows the Volunteer. This facilitates the
        communication of community culture and the needs of the community so
        that the project can be focused in concrete terms on the needs of the
        people.”

        “Volunteers are very adaptable. I am extremely impressed at how quickly they
        can establish good communication.” “They are quickly able to gain acceptance
        from their community and are able to apply the ideas they are bringing in. They
        are good at innovating.”

        “The host family experience allows volunteers to better understand and participate
        in the community.”

Community-based Training (CBT) promotes community integration and cross cultural
understanding.

The Community Based Training (CBT) model was pioneered in Nicaragua and has been
in use since January 1995. It uses “a circuit” of typical Nicaraguan towns, in close
proximity to one another, as a key resource for Trainees during their eleven-week pre-
service training period. Trainees live with host families in training towns with only two
to three other Trainees and are brought together as a cohort in a central location once or
twice a week.

The Training Director holds the view that “host families for the training period are
partners in training. They are trainers themselves; they need to know how to guide
Trainees and serve Peace Corps’ interest.” Therefore, PC/Nicaragua has invested in host
family selection and training. Host families participate in host family meetings and are
provided a manual that describes their responsibilities and explains Volunteer
responsibilities. Host families are targeted to serve once a year with a rest period of 6 - 8
months. Because of the additional programmatic requirement to place Small Business
Development Trainees with families who run businesses, Small Business Development
host families might be asked to serve with a shorter rest period.

Because training is fully integrated around community resources and activities are carried
out primarily in the host towns, the model is very conducive to community integration
and cross-cultural understanding. One hundred percent of Volunteers interviewed during


Final PC/Nicaragua Program Evaluation Report                                                 7
this evaluation found the cultural training component of pre-service training (PST) to be
“moderately effective” to “very effective” and many specifically called out the host
family stay during training as being an integral component in their initial understanding
of Nicaraguan culture.

As noted in A Blueprint for Success, the Office of Inspector General’s case study of
effective Peace Corps programs, Volunteers were best prepared when PST placed them in
situations that resembled their sites and armed them with the skills to carry out their
assignments with confidence.

TRAINING

Peace Corps pre-service training programs are offered in community-based, center-based
or mixed formats. As mentioned above, PC/Nicaragua pioneered the in-house
Community Based Training (CBT) model which offers Trainees the opportunity to
accomplish their learning objectives primarily through interaction with community
members in an applied manor. In addition to PST, PC/Nicaragua considers language,
sector and points-in-service ISTs, regional security and sector meetings, and annual
events like the All Volunteer Conference as part of their training framework.
PC/Nicaragua’s training unit focuses on PST content but acts in a consultative manner for
in-service trainings (IST) and staff development sessions. In the course of our
evaluation, we visited three training towns, observed a language class, observed youth
group facilitations, and visited a technical training facility.

Peace Corps/Nicaragua’s training program appears to be highly effective.

PC/Nicaragua’s training program appears effective in providing Volunteers the target
knowledge, skills, and attitudes defined by each project. The post has established core
and sector competencies and related learning objectives and has a mechanism to measure
learning results. Volunteer training spans a Volunteer’s service and includes multiple
events reflected in PC/Nicaragua’s Training Continuum.

Overall, Volunteers we interviewed found pre-service (PST) and in-service (IST)
trainings effective. For the topics of culture, safety and security and medical and health,
all Volunteers interviewed found training to be “moderately” to “very effective,” where
97% found language training to be “moderately” to “very effective” (see Table 2). The
most common rating for the effectiveness of each of these training areas was “very
effective.”

Volunteers rated the effectiveness of technical training lower than other areas. However,
the most common rating for this topic was “above average.” The effectiveness of
technical training is a challenge for posts globally. In the 2006 Biennial Volunteer
Survey, on a scale of 1 to 5 (1= not at all effective, 5= very effective), Volunteers in
Nicaragua rated PST’s effectiveness at preparing them to perform technical aspects of
work at 3.5 compared to the global average of 2.9. This was consistent with the FY 08
Quarter 1 Close of Service Survey (COS) where Volunteers gave the same score of 3.5.


Final PC/Nicaragua Program Evaluation Report                                                  8
Table 2: Responses to “Regarding PST, how effective was training in …”
                        Ineffective   Below     Moderately Above                        Very
                                    Average                    Average                Effective
                            (1)         (2)          (3)          (4)                    (5)
Language (n=29)             0%         4%           11%         30%                     56%
Culture (n=31)              0%         0%            3%         28%                     69%
Safety/Security (n=32)      0%         0%            7%         30%                     63%
Medical/Health (n=32)       0%         0%            7%         27%                     67%
Technical (n=32)            0%         20%          20%         40%                     20%
Source: OIG Volunteer Interviews, 2008



Volunteer relationships with counterparts are also important for community integration at
site. They facilitate an understanding of working in the Nicaraguan context. To address
working relationships between Volunteers and counterparts, the PST curriculum includes
a session on “Working with Counterparts” as well as an entire day, “Counterpart Day,”
dedicated to an orientation about Peace Corps and the relevant project plan and goals,
laying out roles and responsibilities for the Volunteer and counterpart, and time to plan
the first three months of work. After at least six months in service, Volunteers and
counterparts are invited to the Project Design and Management (PDM) workshop to
further their working relationship.

Competencies, learning objectives and tools provide clear expectations and support the
link between programming and training.

PC/Nicaragua was one of the first posts worldwide to adopt the agency’s competency-
based training format. 3 The post established six core competencies with related learning
objectives:
    1.   Promote youth group development
    2.   Build capacity of community members
    3.   Facilitate participatory community development
    4.   Integrate into Nicaraguan culture
    5.   Contribute to accomplishment of project goals
    6.   Commit to Peace Corps mission and quality Peace Corps service

Additionally, each project sector has established project-specific competencies and
learning objectives based on the project plan. Learning results are measured by
Trainee/Volunteer self-assessment and by staff assessment. According to both
programming and training staff, competencies and learning objectives are revisited and
updated, as necessary, after each training cycle. We believe that PC/Nicaragua’s
programming, training, and Volunteer support are integrated.


3
 The November 2006 Director Memorandum on the Training Design and Evaluation (TDE) process
established standard definitions, standards, and criteria for training.


Final PC/Nicaragua Program Evaluation Report                                                 9
PC/Nicaragua uses the Volunteer Information Database Application’s (VIDA) Program
Notes as a source to monitor Trainee progress and/or issues during PST and throughout
the Volunteer’s service. At two key points during PST, 4 “roundtables” are held to
discuss Trainee progress and identify actions for immediate feedback and/or follow-up.
This process contributes to teambuilding and capitalizes on the team’s collective
expertise for determining approaches for corrective action if needed. It also provides an
opportunity for programming staff to hear other staff perspectives prior to placing
Volunteers in their permanent sites.

One of the core competencies for PC/Nicaragua’s PST period is to “Integrate into
Nicaraguan Culture” and cultural adaptation is considered as a criterion for qualification
as a Volunteer. A set of specific attitudes and behaviors related to adaptation is used to
assess Trainee progress. This list of indicators is included in Trainees’ PST Manual, a
supplement to the PC/Nicaragua Volunteer Handbook, and is used by Language
Facilitators to guide their weekly VIDA entries on cultural adaptation. Throughout the
PST manual, the post’s philosophy on the importance of cultural sensitivity revealed in
Volunteer behavior is emphasized.

During PST, Trainees are given a cross-cultural self-assessment tool which provides a
baseline for discussion between the Trainee and training staff. Its intent is to assess
progress toward meeting criteria based on cross-cultural dimensions at two different
points during PST. Once Trainees are successfully sworn-in as Volunteers, the
importance of cross-cultural understanding is put into practical application as Volunteers
enter their sites. Each project’s initial performance report is solely focused or has a
section dedicated to community entry and provides a mechanism for Volunteers to report
on the integration ‘work’ and accomplishments that are the focal points of the first few
months at site. We believe this to be something that other posts could benefit from.

We found that PC/Nicaragua’s competencies provide clear expectations for Trainees
during pre-service training and for Volunteers at points later in service. This framework
also provides an outcome-based, common goal which facilitates communication and
teamwork between programming and training staff throughout the lifecycle of a project.

Youth groups and PACA activities during PST provide Trainees with the skills to be
successful as Volunteers.

Another of PC/Nicaragua’s core competencies is to promote youth group development.
The post has strategically reinforced this competency through programming and training
integration. A youth component is included in each sector’s project plan. All Trainees,
regardless of sector, are required to form and maintain a youth group during the 11 weeks
of PST. The intent is to provide each Trainee an opportunity to practice facilitating a
youth group and deliver life skills sessions from the Life Skills Manual during training.
Trainees are required to keep a journal of their activities and lessons learned and to
submit a final report upon completion of the project as a requirement for swearing in.

4
  In an 11 week PST, the first roundtable takes place during week 4, after programming and training staff
interviews with Volunteers. The second takes place during week 8, prior to assigning Volunteers to sites.


Final PC/Nicaragua Program Evaluation Report                                                            10
We found that the Youth Group Project Technical Guidelines booklet outlines project
ideas and weekly activities, including specific activities outlined in the PACA ideas book.
Expectations for this project are clearly laid out in the introduction and emphasize that
effort put into the project, lessons learned during its implementation, and progress
towards sector competencies are the drivers for performance evaluation during training.

As noted in The Center’s 2007 Agency Initiatives Feedback, “The work that
PC/Nicaragua has done around youth development integration has been exemplary.”
Volunteers we interviewed stated that upon the completion of PST, “I felt confident that I
could manage a youth group,” and “I felt prepared to do my job.”

Training staff’s institutional knowledge and integration into the PC/Nicaragua team
are factors in the program’s success.

PC/Nicaragua’s training program is used as a community-based training model for other
Peace Corps posts and hosted a regional Training Managers workshop in February 2008.
In addition to a seasoned Programming and Training Officer (PTO), PC/Nicaragua has
two other senior staff members heading their training program. Both participate in
weekly senior staff meetings and are considered respected members of the team. The
Training Officer has been leading the training program in Nicaragua for 11 years and had
an additional 10 years of prior Peace Corps experience in Honduras. The Master Trainer
has been with the program for three years and prior to that was a technical trainer for the
former Youth Development project in the Atlantic Coast.

PC/Nicaragua keeps a permanent core staff of Language and Cultural Facilitators (LCFs)
to support the number of Trainee Inputs (TIs). The least tenured permanent LCF has
been with the post for seven years. Experienced LCFs serve as mentors to new members
of the team during Training of Trainers (TOTs) sessions. The Training Officer relayed
that it takes three to four training cycles to build competency in the Peace Corps
methodology of teaching language.

VOLUNTEER SUPPORT

Volunteers reported that they were satisfied with the support they receive from staff.

Volunteers in Nicaragua are satisfied with the support they receive from post staff as
indicated by the information provided by the Volunteers we interviewed during this
evaluation. Across the board, Volunteers reported that they felt supported by post staff.
PC/Nicaragua is considering implementing a Peace Corps Volunteer Coordinator/Leader
program to further enhance the support it provides to the Volunteer community. The
average ratings for staff on a five point scale (1= Not Supportive to 5=Highly Supportive)
follow:




Final PC/Nicaragua Program Evaluation Report                                             11
              Table 3: Responses regarding Volunteer support 5
                                                    Average Score for
              Area
                                                        Support
              Leadership                                  3.97
              Programming                                 4.52
              Training                                    4.13
              Safety and Security                         4.72
              Medical                                     4.46
              Administrative                              4.39
              Source: OIG Volunteer Interviews, 2008



While not included above, multiple Volunteers commended additional support staff (i.e.,
receptionists) when discussing their perception of support from PC/Nicaragua staff.

As noted in the table above, the current cohort of Volunteers feels supported by the
Safety and Security Coordinator (SSC). The current SSC, who began service in March
2008, has had to address multiple Emergency Action Planning events in his short tenure.
Staff and Volunteer interviews confirm that he has kept them informed. He seems to
have developed a strong rapport with post staff and Volunteers.

Responses to the 2006 Peace Corps Volunteer Survey for Nicaragua, Volunteers were
similar to global results in all areas except safety and security support. The percent of
Volunteers responding “considerably” or “completely” satisfied were lower (51%) for
Safety and Security support for Nicaragua compared to global (63%). This could be
related to the fact that there has been significant turnover in the SSC position over the last
three years.

PC/Nicaragua appeared to be addressing and reporting crimes against Volunteers, but
there were discrepancies between post and headquarters incident reporting.

PC/Nicaragua has documented protocols in place for responding to a crime and uses the
Crime Incident Reporting System to report incidents. However, there were discrepancies
in the numbers of incidents collected by headquarters and by post for 2007. 6 The
evaluation team reviewed the post’s crime incident compilation for calendar year 2007.
We compared PC/Nicaragua’s frequencies in crime categories for reported incidents to
incidents aggregated by the headquarters Crime Statistics and Analysis Unit (CSA) in the


5
  Leadership was derived by averaging Country Director and Programming and Training Officer scores;
Programming was derived by averaging APCD and Project Specialist scores; Training was derived by
averaging Training Officer and Master Trainer scores; Safety and Security was derived from the Safety and
Security Coordinator score; Medical was derived from the collective PCMO score; and Administrative was
derived from the Administrative Officer score.
6
  The Crime Incident Reporting System (CIRS) was deployed in April 2008 and replaced the Crime
Incident Reporting Form (CIRF). All 2007 data was reported through the CIRF. Data collected prior to
April 2008 is not available in the CIRS system.


Final PC/Nicaragua Program Evaluation Report                                                          12
Office of Safety and Security for the same time period. The discrepancies are listed in
table 4:

Table 4: Crime Incident Reporting
                                                           Information
                    Office of Safety         Crime
                                                          provided by the    Information
                     and Security           Statistics
                                                              post at       provided by the
                     Information          Analysis Data
                                                            evaluation       post (8/22/08)
                    from Intranet           Request
                                                               onset
Kidnapping                  1                  1                 1                0
Robbery                     4                  3                 1                6
Burglary or
Attempted
Burglary w/PCV              1                  1                0                 1
physically
present
Other Sexual
                            1                  1                0                 1
Assault
Other Physical
                            1                  1                1                 2
Assault
Burglary w/o
                            1                  1                1                 1
presence of PCV
Theft                       9                  8                5                 16
Vandalism                   1                  1                2                  1
Unknown                     0                  0                0                  1
Major Physical
                            0                  0                0                 1
Assault
Total                       19                 17               13                28


While the CIRS system is intended to address reporting discrepancies in real time, crime
incidents from previous years are used for trend analysis. A January 2007 PCSSO report
recommended that post conduct a formal review of all Volunteer incidents on an annual
basis in order to identify trends, hot-spots and any needed changes in programming and
training activities. Discrepancies in crime incident reporting or categorization could
provide inaccurate information to potential Volunteers, current Volunteers or other
agency stakeholders. Both the CSA data analyst and the post’s SSC have been
conscientious in researching and reconciling this discrepancy. Both are relatively new to
their positions and were not in their positions during the time period in question.


                 We recommend:

                 1. That the post and the Office of Safety and Security
                    identify and resolve the discrepancies for 2007 crime
                    incident data.




Final PC/Nicaragua Program Evaluation Report                                              13
                 2. That the Office of Safety and Security identify if this
                    issue is occurring at other posts.


Volunteers reported that they feel safe at their sites but less safe in Managua.

Volunteers we interviewed rated their perception of safety on a five point scale. All
Volunteers rated their safety in all locations “average safe” to “very safe.” Volunteers
reported that they felt the least safe when traveling to the Peace Corps office in Managua.
Many noted the need to take taxis in Managua as a factor that contributed to their
perception of being less safe.

Table 5: “Regarding safety and security, rank your perception in the following:…”
                                          Below                            Above
                         Unsafe                          Average                       Very Safe
                                         Average                          Average
At home (n=32)              0%             0%               3%              19%            78%
At work site
                            0%             0%               3%              22%            75%
(n=32)
In community
                            0%             0%               3%              44%            53%
(n=32)
When traveling
                            0%             0%              25%              47%            28%
(n=32)
When visiting
the PC office               0%             0%              37%              30%            33%
(n=30)
Source: OIG Volunteer Interviews, 2008



We reviewed and analyzed crime incident data for PC/Nicaragua for the past two years.
Two kidnapping incidents occurred in Nicaragua during that time period which involved
taxis in the Managua area. 7 Per the most recent Safety of the Volunteer report, 2006, no
kidnappings occurred in Peace Corps worldwide. While Volunteers we interviewed
seemed aware of, and highlighted the potential risk of taking taxis in the capital region as
contributing to their perception of safety, the evaluation team did not confirm whether
this specific risk was addressed during safety training.


                 We recommend:

                 3. That the safety and security coordinator ensure that
                    risks and strategies to avert kidnappings are
                    included in safety training.



7
 The kidnappings were “express kidnappings,” a method of abduction where the victim is forced to
withdraw money from his or her bank account using an ATM card.


Final PC/Nicaragua Program Evaluation Report                                                       14
PC/Nicaragua has improved Volunteer contact time in emergency communications
testing, but could strengthen EAP information by including detailed maps of
consolidation points.

PC/Nicaragua has tested their communication for emergencies four times within the past
year due to actual events. The table below shows response times for the percentage of
Volunteers reached during four different EAP activations. As noted below, the post has
significantly improved its ability to contact Volunteers in a timely manner. The post
most recently tested their emergency communication system during an event on May 29,
2008 when a hurricane affected two departments on the Pacific Coast. Volunteers in the
path of the storm were instructed to consolidate; all others were placed on stand fast.

    Table 6: Percent of Volunteers reached per EAP Test Records
                                 9/3/2007     10/12/2007 5/8/2008                         5/29/2008
    Within 24 hours                49%          38%        96%                              92%
                                                     8
    Within 48 hours                63%          39%        99%                              97%
    Within 72 hours                65%          39%        100% 9                           98%
    More than 72 hours             65% 10       42% 11                                      100% 12
    Source: EAP Test Records



Of the Volunteers we interviewed, 97% (31 of 32) Volunteers rated their level of
familiarity with the PC/Nicaragua Emergency Action Plan (EAP) as above average or
higher. We asked Volunteers to describe their responsibilities in the case the plan was
activated as well as to confirm where they were expected to meet if consolidated (i.e.,
consolidation point). Generally, Volunteers were able to articulate their responsibilities
and name their consolidation point.

In our review of the post’s EAP, we noted that the maps to consolidation points are
regional topographical maps and do not include street maps or addresses of consolidation
point hotels. Without adequate maps, new Volunteers could find themselves in
unfamiliar areas or unsure of the location of their consolidation sites when emergencies
like natural disasters or civil strife unfold around them. As noted in the 2008 OIG
Program Evaluation of Volunteer Safety and Security, this situation is pervasive Peace
Corps wide.




8
  The post’s EAP Test record for 10/12/2007 states that 39% were reached at the end of 49 hours.
9
  Per the post’s EAP test record for 5/8/2008, 100% of Volunteers were contacted at the end of 51 hours.
10
   The post’s EAP test record for 9/3/2007 ends at 53 hours with 65% of Volunteers responding.
11
   The post’s EAP Test record for 10/12/2007 ends at 242 hours with 42% (82 of 193) Volunteers
responding.
12
   Per the post’s EAP test record for 5/29/2008, 100% of Volunteers were contacted at the end of 77 hours.


Final PC/Nicaragua Program Evaluation Report                                                            15
                 We recommend:

                 4. That the post include consolidation point addresses
                    and maps that would allow a Volunteer unfamiliar
                    with the consolidation point city to find it.


Volunteers reported that they question the effectiveness of the Volunteer Advisory
Council (VAC).

The Volunteer Advisory Council (VAC), intended to gather, analyze, and funnel
Volunteer concerns and suggestions to staff, is not functioning effectively. Thirty-nine
percent of Volunteers interviewed found the VAC to be "below average in effectiveness"
to "ineffective." Additionally, another 32% answered that they could not assess
effectiveness because they did not know what the committee was or were not sure who
their representative was. Volunteers stated that meetings, both regional and national,
have not been held regularly and questioned the committee's purpose. VAC meeting
minutes were not available for review by the evaluation team.

Volunteers also stated that the information often relayed in departmental VAC meetings
was outdated and had already been communicated directly from post's leadership. The
country director sends regular email notifications to Volunteers that range in topics such
as staffing updates, upcoming visits, and policy notifications. Additionally, many
Volunteers stated that they feel comfortable addressing issues or concerns directly with
staff. Though positive relationships exist between current Volunteers and staff, VACs
provide a systemic mechanism for ongoing representational communication. A well-
functioning VAC allows for a clear communication channel should the relationship
dynamics change in the future.


                 We recommend:

                 5. That the post reinvigorate the VAC to ensure that it
                    represents all sectors and regions. We encourage
                    the VAC to publish meeting minutes or meeting
                    summary/results after each meeting and to
                    distribute to all Volunteers to keep them informed.


Volunteers described concerns with their living allowance, but ratings and living
allowance survey response rates indicate more information is needed for a complete
picture.

It is Peace Corps’ policy that Volunteers live modestly by the standards of the people
they serve, yet not in a manner that would endanger their health or safety. The majority
of Volunteers interviewed during this evaluation broached Nicaragua’s inflation,



Final PC/Nicaragua Program Evaluation Report                                             16
specifically since January 2008, when discussing the adequacy of their living allowance.
Nicaragua’s rate of inflation for the current year was noted to be up significantly by the
US Ambassador to Nicaragua in the evaluation team’s out briefing.

Fifty-eight percent of Volunteers stated that their living allowance permits them to
maintain a safe and healthy lifestyle “moderately well.” Most Volunteers, who rated this
question better than “moderately well,” stated that they did not pay for rent. Six
Volunteers did not give concrete numerical ratings but cited the issues of the rising costs
of food, transportation and rent as factors that contribute to their allowance’s
inadequacy. 13

Table 7: Responses regarding Volunteer support
 How well does your living allowance permit you to maintain a
                                                                                     Percent
 safe and healthy lifestyle?
 Not at all                                                                             0%
 Just barely                                                                            8%
 Moderately well                                                                       58%
 Above average                                                                         21%
 Very well                                                                             13%
Source: OIG Volunteer Interviews, 2008



For the past three years, the post has not achieved a 75% response rate on the living
allowance survey required by PCM section 221.5.7.3, to increase living allowances by
more than 10%. The last survey was issued in November 2007. The post intends to
conduct a new survey in summer 2008. Some Volunteers have requested adjustments to
their living allowance on an individual case basis.

We find it encouraging that revisions were issued to PCM section 221 on July 25, 2008,
which provide for a base allowance comprised of standard categories (i.e., food,
household supplies, communication, etc) for all Volunteers. Supplements to the base
living allowance may be added on a per Volunteer basis to cover housing, utilities,
locality supplements as needed. This structure of segregated components should provide
a clearer picture of the cost of living for Volunteers and will allow for a more extensive
analysis of the issue. As this issue may be more significant in certain regions or
situations, we encourage the Volunteer community to take ownership in helping to
address the issue.

Volunteers and staff expressed concerns about medical confidentiality due to the
physical layout of the medical office.

The physical layout of PC/Nicaragua’s medical office is small and office walls are thin
enough to hear through. The post has taken creative approaches to attempt to solve this
13
  The Volunteers referred to were coded as non-answers and were not included in the valid percent
breakdown. With such a small sample size, if these numbers were included the percent results could vary
significantly.


Final PC/Nicaragua Program Evaluation Report                                                          17
issue like playing music during office hours but concerns are still being raised. The
concern of medical confidentiality, specifically conversations overheard through walls,
was raised by both staff and Volunteers during interviews. The evaluation team
conducted a physical inspection of the facility and confirmed that conversations could be
heard through walls. This raises concerns about Volunteers’ comfort levels for
approaching medical staff with issues and concerns.


                 We recommend:

                 6. That post leadership quantify the pervasiveness of
                    medical confidentiality concerns among Volunteers
                    and take action accordingly.


The post does not have a policy regarding horses as a mode of transportation.

Peace Corps Manual section 450 requires posts to develop post-specific transportation
policies. While there is no agency requirement to establish a horse-riding policy, the
post’s current transportation policy does not account for using a horse as a mode of
transportation.

Riding horses remains a viable mode of transportation in Nicaragua, especially in rural
areas. Some Volunteers own horses during service. Others ride recreationally and as a
way to get to and from work sites. According to one PC/Nicaragua PCMO, there have
been accidents which have required Volunteers seek medical care, one of which occurred
during the fieldwork period of this evaluation.


                 We recommend

                 7. That the post consider other posts’ best practices
                    and establish a policy on riding horses.


MANAGEMENT CONTROLS

Extra demands on PC/Nicaragua staff have negatively impacted internal management
controls.

Headquarters and post staff interviews and agency reports demonstrate that PC/Nicaragua
has a good working relationship with headquarter offices and makes a concerted effort to
institute and use the agency’s recommended internal controls. PC/Nicaragua has on
going initiatives to further enhance the effectiveness and efficiency of operations and the
office appears to function well as a team. However, extra demands placed on senior post
leadership such as staff coverage for other posts, embassy support, and visitor visits, have


Final PC/Nicaragua Program Evaluation Report                                             18
stifled progress towards activities deemed non-critical to post operations. Subordinate
staff, though highly fond of senior leadership, voiced that senior leadership’s lack of
availability has created a disruption in office operations in the areas of sharing of best
practices, or the facilitated collaboration within and between units. Due to the extra
demands placed on senior staff, Programming and Training meetings and Volunteer
Advisory Counsel meetings were no longer occurring on a regular basis. Also voiced
was the need for a staff reference manual that explains staff roles and responsibilities and
the volunteer lifecycle.

We believe that a staff manual could be a useful tool to help maximize the efficiency and
effectiveness of post operations, especially in light of post’s recent attrition rates and
Peace Corps’ time limited appointments for direct hire staff.

AGENCY PERFORMANCE REPORTING

Certain information reported by PC/Nicaragua Volunteers in trimester reports and
compiled annually by post through the Center’s annual project status review process is
reported annually to the Congress. Two examples of indicators that are presented to the
Congress in the Peace Corps annual Performance and Accountability Report are: (1)
individuals assisted by Volunteers and (2) service providers trained by Volunteers.

The agency has been working to provide a standard definition for aggregate agency
indicators. However, due to the nature of Peace Corps operations, a standard set of sector
performance indicators has not been defined. A meaningful performance indicator in one
project sector in one country could be vastly different in the same sector in a different
country.

Peace Corps plans to deploy a Volunteer Reporting Tool in January 2009 for all posts to
more efficiently and effectively manage the collection, use, and reporting of Volunteer
project data. Currently, programming staff for each project in PC/Nicaragua collects
information from Volunteers and maintains its own system for aggregating the project
specific indicators (i.e., database, spreadsheet, manual system).

Reliability of performance data is limited and dependent on the training and
supervision Volunteers receive.

Ninety-six percent (96%) of Volunteers reported that the reliability of performance
information they reported on a quarterly basis was “average” to “highly reliable.”




Final PC/Nicaragua Program Evaluation Report                                              19
Table 8: Reliability of Quarterly Reports
 How reliable is the information you report in the
                                                                 Number        Percent
 quarterly reports?
 Unreliable                                                         0            0%
 Below average reliability                                           1            4%
 Average reliability                                                 6           23%
 Above average reliability                                          12           46%
 Highly reliable                                                     7           27%
 Total of valid responses                                           26
Source: OIG Volunteer Interviews, 2008



The reliability of information reported by Volunteers, such as the number of individuals
assisted by Volunteers, and service providers trained by Volunteers, is dependent on the
training and supervision they receive to complete trimester reports. Seventy-nine of
Volunteers we interviewed in Nicaragua stated that they had been properly instructed and
that they understood the need for reliable performance information, although a few
acknowledged that they occasionally used “estimates.” Concrete examples of exact
counts of unique beneficiaries were provided, such as numbers of “charlas” or sessions
given or numbers of trees planted. Alternatively, Volunteers supplied illustrative
examples of the challenges they face in counting individuals assisted, such as: counting
the number of people who adopt a practice or demonstrate behavior changes. According
to Volunteers, this leads to estimation, under- or, over-reporting. The post staff in
Nicaragua who review, adjust and summarize this performance information
acknowledged that information reported by Volunteers sometimes needs to be adjusted
due to occasional duplication or differing interpretations by Volunteers. It appears that
given the nature of the data collected, the reasonableness of its accuracy is limited.

Post and headquarter staff were hopeful that current initiatives will make the performance
reporting process less arduous and will result in more accurate performance information.
Consistent with our recent OIG evaluation of PC/Dominican Republic, we believe that as
the agency and posts’ reporting tools evolve a more concerted effort by the Peace Corps
to coordinate data collection efforts will be necessary to assure all posts are reporting
consistent and reliable data, recognizing there may be limitations. Additionally, we
believe that the agency could benefit from posts sharing sector-level performance
indicators and best practices for developing them.


                 We recommend:

                 8. That the region work with the Center to provide a
                    consolidated place where posts can publish and
                    search for sector specific performance measurement
                    tools and performance indicators.



Final PC/Nicaragua Program Evaluation Report                                           20
                                     POST STAFFING
At the time of our field visit, PC/Nicaragua had 38 staff positions, one of which was
vacant due to a leave of absence. The positions included two U.S. direct hire employees
(USDH), two foreign service nationals (FSN), and thirty-four personal services
contractors (PSC). We interviewed 19 staff.


                                     PC/Nicaragua Positions
                          Position                                  Status
Country Director                                                    USDH
Programming and Training Officer                                    USDH
Safety and Security Coordinator                                      PSC
Executive Assistant                                                  PSC
APCD/Environment                                                     PSC
APCD/Small Business Development                                      PSC
APCD/Agriculture                                                     PSC
APCD/Health                                                          PSC
APCD/TEFL                                                            PSC
Program Specialist/Environment                                       PSC
Program Specialist/Small Business Development                        PSC
Program Specialist/Agriculture                                       PSC
Program Specialist/Health                                            PSC
Program Specialist/TEFL                                              PSC
Training Officer                                                     PSC
Master Trainer                                                       PSC
Technical Trainer                                                    PSC
Logistics Coordinator                                                PSC
Language and Culture Facilitator (6)                                 PSC
Administrative Officer                                               FSN
Administrative Assistant (2)                                         PSC
Cashier                                                              FSN
IT Specialist (on leave of absence)                                  PSC
Receptionist                                                         PSC
General Services Assistant                                           PSC
Driver                                                               PSC
Medical Expediter                                                    PSC
PCMO (4: 2 full time, 2 part time)                                   PSC
Medical Assistant                                                    PSC




Final PC/Nicaragua Program Evaluation Report                                          21
                         LIST OF RECOMMENDATIONS

We recommend:

1. That the post and the Office of Safety and Security identify and resolve the
   discrepancies for 2007 crime incident data.

2. That the Office of Safety and Security identify if this issue is occurring at other posts.

3. That the SSC ensure that risks and strategies to avert kidnappings are included in
   safety training.

4. That the post include consolidation point addresses and maps that would allow a
   Volunteer unfamiliar with the consolidation point city to find it.

5. That the post reinvigorate the VAC to ensure that it represents all sectors and regions.
   We encourage the VAC to publish meeting minutes or meeting summary/results after
   each meeting and to distribute to all Volunteers to keep them informed.

6. That post leadership quantify the pervasiveness of medical confidentiality concerns
   among Volunteers and take action accordingly.

7. That the post consider other posts’ best practices and establish a policy on riding
   horses.

8. That the region work with the Center to provide a consolidated place where posts can
   publish and search for sector specific performance measurement tools and
   performance indicators.




Final PC/Nicaragua Program Evaluation Report                                               22
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
                                                      Since 1961.

           MEMORANDUM


           To:               Kathy Buller, Inspector General

           From:
                             Allene Zanger, Regional Director, Inter-America and Pacific            tf   ~
           CC:               Pat Hogan, Associate Director for Safety and Security
                             David Liner, Chief of Staff
                             Michelle Brooks, Deputy Chief of Staff/Chief of Operations
                             John Dimos, Chief Compliance Officer
                             George Baldino, Country Director, Nicaragua
                             Amy Horton, Director, Center for Field Assistance and Applied Research
           Date:            November 19,2008

           Subject:          Preliminary Audit Report on Peace CorpslNicaragua


           Enclosed please find the Regional response to the recommendations made by the
           Inspector General for Peace Corps Nicaragua, as outlined in the Preliminary Audit Report
           on Peace Corps Nicaragua.

           The Region concurs with all recommendations.




Paul D. Coverdell Peace Corps l-1eadquarters   1111
                                                  20th Street. NW . Washington. DC 20526   www.peacecorps.gov   I 800.424.8580
            Responses to


      Office of Inspector General
Preliminary Program Evaluation Report

       Peace Corps/Nicaragua




           November 2008
Recommendation 1. That the post and the Office of Safety and Security identify and
resolve the discrepancies for 2007 crime incident data.

Concur. Since June 2008, post has been working with Data Analyst, Elizabeth Lowery,
Crime Statistics and Analyst Manager Girlyn Arganza and OIG Evaluator Susan Gasper
to identify and resolve the discrepancies identified by the OIG evaluation team. Recent
communication exchanges with the Data Analyst and the Crime Statistics and Analyst
Manager indicate that virtually all discrepancies have been resolved. We expect that
those that remain pending will be successfully resolved by November 28, 2008. See
attached.

Date of Completion: Anticipated completion November 2008

Recommendation 2. That the Office of Safety and Security identify if this issue is
occurring at other posts.

Concur. The Region concurs with the value of the recommendation. However, the action
necessary to close the recommendation does not correspond to the Region, but to the
Office of Safety and Security at Peace Corps Headquarters. The Response from the
Office of Safety and Security is attached.

Date of Completion: November 2008 and ongoing.

Recommendation 3. That the safety and security coordinator ensure that risks and
strategies to avert kidnappings are included in safety training.

Concur. From the time the SSC arrived at post in March 2008, kidnappings and express
kidnappings (taxi related crimes) have become priority topics to address at In-Service
Trainings (ISTs), Pre-Service Trainings (PSTs), Regional Safety and Security Meetings
(RSSMs) and through regular notifications to PCVs by way of Direct Line newsletters,
Safety & Security Bulletins, e-mail messages, and the forwarding to PCVs of relevant
HQ material. This type of crime has become much more common in the capital city of
Managua, Nicaragua. However, the fact that a PCV was a victim of this crime in
Managua despite the training and counseling provided made it an even higher priority for
post.

The SSC has reviewed and enhanced training materials and is including this threat in all
his presentations. Further, the U.S. Embassy RSO has included this topic in all its
briefings and presentations to PCTs and PCVs, highlighting the importance of awareness
and suggesting strategic countermeasures. Together with the SSC the RSO stressed this
topic at all the Regional Safety and Security meetings held this year for Volunteers in the
field between July 28 and August 19, and will continue to do so at the annual regional
meetings next year and beyond. The RSO addressed the issue with the Nica 48 Trainees
at its Orientation Retreat in September of this year, and will continue to include the topic
at all future PSTs. While some of the RSO’s material comes from the perspective of the
Embassy foreign service community, most is very relevant to the realities of PCV service



                                                                                           1
and complements very well that of the SCC which is tailored exclusively to the Volunteer
community. Also, in the ongoing effort to provide Volunteers with safer alternatives
when requiring taxi service in Managua, Post continues to expand the list and contact
information of taxi companies and drivers that have been identified as reliable and secure.

Date of Completion: July 2008 and ongoing.

Recommendation 4. That the post include consolidation point addresses and maps
that would allow a Volunteer unfamiliar with the consolidation point city to find it.

Concur. As of June, post has updated its EAP and included consolidation-city specific
maps that include legends of popular landmarks, churches, police offices and commercial
establishments as references. Consolidation Points are marked with arrows and the
addresses and phone numbers of the assembly points are properly identified. The first
EAP edition that included city specific maps was completed in July, 2008, and an
improved edition will be shared with EAP Coordinators and Staff at their November
training, included in the PCV Handbook delivered to the Nica 48 Trainees, and
distributed to Volunteers already in the field. See attached.

Date of Completion: July 2008 and ongoing.

Recommendation 5. That the post reinvigorate the VAC to ensure that it represents
all sectors and regions. We encourage the VAC to publish meeting minutes or
meeting summary/results after each meeting and to distribute to all Volunteers to
keep them informed.

Concur. Post plans to reinvigorate VAC and ensure that it represents all sectors and
regions began at the June 9th VAC meeting while OIG representatives were still in
country. The Peer Support Network (PSN) committee proposed to collaborate with VAC
representatives to establish a regular schedule of Welcome VAC meetings to take place
within one month of the Swearing-In of each sector. VAC and PSN representatives were
charged with taking the initiative to plan and implement a Welcome VAC meeting to
include: an agenda to exchange information between Peace Corps staff and Volunteers, to
provide an opportunity for new PCVs to meet VAC members from their departments, to
learn about and discuss S&S issues, to become familiar with sector and cross-sector
resources, and to provide an opportunity for PSN, Diversity and GAD/Guia Committee
members to communicate how each group can support the PCVs in their department.
Dates were established for both national and departmental VAC meetings. VAC minutes
were published and distributed by the VAC president and departmental representatives.
See attached.

The first Welcome VAC meetings were held the end of August. VAC reps reported that
VAC meetings took place in all departments and resulted in input that was brought to the
next VAC meeting held September 19th. Outgoing VAC representatives brought new
VAC representatives to the meeting and reviewed and discussed VAC responsibilities.
VAC minutes were again published and distributed by the VAC president and



                                                                                         2
departmental representatives. VAC and PSN representatives were asked to coordinate
departmental welcome and peer support activities in anticipation of the new Nica 48
group’s swearing-in and arrival to sites in November. The next National VAC meeting
was set for January. See attached.

Note: The VAC meeting scheduled for October 2007 was cancelled due to the two week
emergency Consolidation and rescheduled for January 2008. However, the January VAC
meeting also had to be cancelled due to Director Tschetter’s visit, and was replaced with
activities that provided Volunteers the opportunity to interface with Peace Corps’
Worldwide Director.

Date of Completion: June 2008 and ongoing.

Recommendation 6. That post leadership quantify the pervasiveness of medical
confidentiality concerns among Volunteers and take action accordingly.

Concur. Post has undertaken a survey to determine the pervasiveness of medical
confidentiality concerns among the Volunteers due to the degree of sound insulation and
other structural characteristics of the Medical Unit office and its examination rooms. Post
administered a survey to Volunteers in October 31, 2008. As of November 14, of the 85
Volunteers that have responded, 14 report that they have experienced confidentiality-
related uneasiness and discomfort during consultations generally due to the fear of
conversations being overheard. A fair number of Volunteer responses also indicate that
the playing of background music in the consultation rooms has helped significantly to
lessen the fear of conversations potentially being overheard. Post continues to study ways
to solve completely this risk to confidentiality. See attached.

Date of Completion: October 2008 and ongoing.

Recommendation 7. That the post consider other posts’ best practices and establish
a policy on riding horses.

Concur. Post has received material from other posts and sources regarding horseback
riding, and is in the process of developing policy on riding horses for inclusion in the
PCV Handbook. The CD, PTO, Training, Medical Office Staff and the Safety and
Security Coordinator are reviewing these best practices and recommendations with a
view to adapting them to the needs of the PCVs in-country. This will be completed by
December 12, 2008, distributed to all Volunteers in the field, and be incorporated in the
PCV Handbook for distribution to the Nica 49 Trainees scheduled to arrive in January
2009. In the meantime, the handout on horse riding tips is being sent out to all
Volunteers. See attached.

Date of Completion: Anticipated completion December 2008 and ongoing.




                                                                                            3
Recommendation 8. That the region work with the Center to provide a consolidated
place where posts can publish and search for sector specific performance
measurement tools and performance indicators.

Concur.

Center Response: OPATS has already begun to post examples of performance indicators,
methods, and measurement tools on Guru and in the Agency All Center M&E Unit
folder. OPATS will be focusing on the selection, development, and dissemination of
appropriate methods and tools to share with all posts throughout 2009 and beyond on an
on-going basis. WebEx training sessions will also be provided as well as “M&E Tips”
disseminated through the Regional newsletters.

The Region believes that the above action taken by the Center will provide the
consolidated place for sector specific tools and indicators as recommended by the Office
of Inspector General.

Date of Completion: August 2008 and ongoing.




                                                                                           4
APPENDIX B

                               OIG COMMENTS

Regional management and the Office of Safety and Security concurred with all 8
recommendations.

We closed recommendation numbers 1, 2, 4, 5, and 6. For recommendation number 2,
we recognize that the Office of Safety and Security is making progress towards
correcting the discrepancies of crime incident data records with the new Crime Incident
Reporting System. Therefore, we have closed recommendation number 2. However, we
remain concerned that crime incident data collected prior to April 2008, used for
reporting and historical trend analysis, has not been reviewed for discrepancies. For
example, the 2007 crime incident data that we reviewed for PC/Nicaragua contained
several discrepancies, despite the Office of Safety and Security assertion that the data
discrepancies had been reconciled.

Recommendation numbers 3, 7, and 8 remain open pending confirmation from the chief
compliance officer that the following has been received:

   •   For recommendation number 3, a copy of the two most recent training
       presentations that included strategies to avert kidnapping.

   •   For recommendation number 7, a copy of the post’s Volunteer Handbook that
       includes its policy on riding horses.

   •   For recommendation number 8, a copy of GURU screen shots, including the
       URL, that show sector specific performance measurement tools and performance
       indicators.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C

              PROGRAM EVALUATION COMPLETION
                    AND OIG CONTACT


PROGRAM EVALUATION COMPLETION
This program evaluation was conducted under the direction of Shelley Elbert, Assistant
Inspector General for Evaluations, and by Evaluators Susan Gasper and Tom O’Connor.
Additional contributions were made by Reuben Marshall, Heather Robinson, and April
Thompson.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us improve our
products, please e-mail Shelley Elbert, Assistant Inspector General for Evaluations and
Inspections, at selbert@peacecorps.gov , or call (202) 692-2904.
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
